                Access to the Toll-Free Telephone System
                 Was Significantly Improved in 2003, but
                  Additional Enhancements Are Needed

                                   January 2004

                       Reference Number: 2004-30-038




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       January 26, 2004


       MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                      DIVISION
                      COMMISSIONER, WAGE AND INVESTMENT DIVISION


       FROM:                          Gordon C. Milbourn III
                                      Acting Deputy Inspector General for Audit

       SUBJECT:                       Final Audit Report - Access to the Toll-Free Telephone System
                                      Was Significantly Improved in 2003, but Additional
                                      Enhancements Are Needed (Audit # 200330007)


       This report presents the results of our review of the Internal Revenue Service’s (IRS)
       ability to provide taxpayers with effective access to its toll-free telephone system during
       the 2003 Filing Season.1 We performed the audit in response to the continuing
       concerns that the Congress, General Accounting Office, National Taxpayer Advocate,
       and Treasury Inspector General for Tax Administration have raised about the IRS’
       ability to effectively meet the significant annual taxpayer demand for its toll-free
       telephone services.
       In summary, many aspects of the taxpayer experience in accessing the IRS toll-free
       telephone system were significantly improved during the 2003 Filing Season. This
       improvement was reflected in the measures that the IRS uses to gauge the
       performance of its toll-free telephone system. In comparison to the prior filing season,
       for example, the Customer Service Representative (CSR) Level of Service (LOS)2
       increased, CSRs answered more calls, and fewer taxpayers abandoned (i.e., hung up)
       their calls before receiving assistance. Further, taxpayers that called with account- or
       refund-related questions had shorter wait times to receive service, and taxpayers that



       1
         The Filing Season is the period from January through mid-April of each year during which most individual income
       tax returns are filed. All references to the 2003 Filing Season made in this report, unless otherwise specified, are for
       the period from January 1 to April 19, 2003.
       2
         The CSR LOS is the IRS’ primary measure of providing callers with access to a live assistor.
                                                           2


called with account-related questions were more likely to receive assistance when they
reached a CSR assigned to an account application.3
We attributed this improved performance to several factors. First, the IRS has made
many technological, organizational, and process changes over the past several years to
improve taxpayer access to its toll-free telephone system. These changes included
grouping the CSRs into specialized skill areas and enhancing the skill-based call routing
system, establishing six new toll-free numbers to further assist taxpayers in reaching the
appropriate IRS resource, realigning call sites by customer segment, and increasing
reliance on call screeners to route tax law calls to the appropriate assistor.
Second, customer demand for toll-free telephone services was down significantly in
comparison to the prior filing season. The reduced demand was likely attributable to
increased electronic filing options for taxpayers and other IRS-initiated efforts to shift
customer demand for assistance to other communication channels such as the Internet.
Another possible reason for the reduced demand was the absence of major tax law
changes affecting returns filed in 2003.
Although taxpayer access to its toll-free telephone services improved, the IRS has
opportunities to further enhance the taxpayer experience and reduce the costs of
providing toll-free telephone services. A major improvement opportunity involves the
continuing difficulties with initially routing calls to where taxpayers can be helped in an
effective and efficient manner. A technical call routing solution, the Customer
Communications Project Fiscal Year 2001 Release (CC 2001), implemented in
August 2001, was expected to eliminate much of the need for call screeners by
automatically routing the calls to the proper application. During the 2002 Filing Season,
however, taxpayers were unable to understand the complex menu scripts and make the
proper selections. As a result, their calls often ended up in the wrong applications and
had to be transferred from one CSR to another.
For the 2003 Filing Season, the IRS used call screeners to send tax law calls to the
appropriate applications. While this solution significantly reduced the number of
taxpayers that had their tax law calls transferred from one CSR to another, it caused all
calls for tax law assistance to be transferred at least once (i.e., from the screener to a
CSR). In addition, using screeners to manually route calls is a more costly alternative
than using automation. We estimate that the IRS used nearly 109 additional Full-Time
Equivalents (FTE)4 for screeners, at a cost of almost $3.6 million in salaries and
benefits, that would not have been needed if the CC 2001 call routing solution had
worked as planned.
In 2003, the IRS also experienced routing problems for the three other categories of
calls (i.e., account, procedural, and refund). Usability tests, completed by an


3
  The three major categories of calls (tax law, account, and refund) are further subdivided into applications. Within
the account category, there are 20 different applications staffed by CSRs that specialize in the specific appplication.
4
  An FTE is a measure of labor hours. One FTE is equal to 8 hours multiplied by the number of compensable days
in a particular fiscal year. For Fiscal Year 2003, 1 FTE was equal to 2,088 staff hours.
                                                          3


independent contractor after new routing scripts were implemented, showed that the
menu scripts were confusing and caused taxpayers to make wrong selections.5
Another improvement opportunity involved reducing the high Assistor Availability6 levels
that have existed for at least the past two filing seasons. The IRS had planned for an
Assistor Availability of 5.5 percent in Fiscal Year (FY) 2003. During the 2003 Filing
Season, however, the Assistor Availability was 11.2 percent, as compared to
10.8 percent in the prior filing season. Through the end of June 2003, the Assistor
Availability had further increased to 12.15 percent, as compared to 9.24 percent for the
same period last year. When the Assistor Availability is too high, the CSRs’ time is not
being productively used. We estimate that the cost of this additional (i.e., actual versus
planned) availability, in CSR salaries and benefits, was almost $6.4 million.
Finally, the IRS still does not have a financial system that will accurately track its
cost-per-call of providing various toll-free telephone services. While some efforts have
been made in this direction, none have been finalized. Without accurate cost-per-call
measurements for each of the various toll-free telephone services the IRS provides,
management and key stakeholders do not have sufficient information with which to
evaluate the efficiency of toll-free telephone system operations, the return on
investment in technology and human capital, and the costs and benefits of key program
decisions. Because the IRS plans to pilot test the feasibility of outsourcing some tax
law calls during the 2004 Filing Season, accurate cost-per-call data are critical for
comparative purposes.
To address the call routing problems, we recommended that the Directors, Customer
Account Services (CAS), in the Wage and Investment (W&I) and Small Business/
Self-Employed (SB/SE) Divisions develop a set of key numerical identifiers that
taxpayers would select to link their calls to the correct tax law application, revise the
menu scripts for the tax law lines and submit them for independent usability testing prior
to implementation, and establish separate toll-free numbers for general account calls
and tax law calls.
To address the continued high Assistor Availability, we recommended that the Directors,
CAS, in the W&I and SB/SE Divisions reevaluate, as recommended in our audit report
on the 2002 Filing Season,7 whether some applications would benefit by being
combined into a more pooled environment,8 determine those applications for which
availability is highest and retrain the CSRs so they can be transferred as needed to



5
  The contractor’s report on the results of the usability tests stated that it was not intended to render statistically
significant results or to study trends.
6
  Assistor Availability is the time that CSRs are available to take calls, but none are coming in for their specific
skills. The IRS defines Assistor Availability as “the percent of actual workload hours spent in an available state.”
7
  Significant Efforts Have Been Made to Provide Taxpayers Better Access to the Toll-Free Telephone System, but
Additional Improvements Are Needed (Reference Number 2003-30-001, dated October 2002).
8
  Under the pooling principle, a more efficient call site environment is created by taking several small specialized
groups of CSRs, cross-training them, and putting them into a single group. The result is that more CSRs are capable
of handling any call that comes to the group.
                                              4


those applications for which availability is lowest, and reduce either staffing or hours of
operation during those times of the day when call demand is extremely low.
To ensure that IRS management and key stakeholders can effectively monitor and
evaluate the efficiency of the IRS toll-free telephone system operations, we
recommended that the Directors, CAS, in the W&I and SB/SE Divisions develop an
Activity-Based Costing system that reliably captures and reports both the total cost and
the cost-per-call of providing services on each toll-free product line.
Management’s Response: The Commissioner, W&I Division, provided a detailed
response to our draft report. He disagreed with our recommendations to improve the
call routing process. He stated there were no substantiated data or documentation
associated with the recommendation to develop a set of key numerical identifiers that
taxpayers would select to link their calls to the correct tax law application to indicate this
approach would be beneficial. He added the Intelligent Contact Manager system used
to route taxpayer calls has systemic limitations that would not support this initiative
without an extensive upgrade. The Commissioner also disagreed with our
recommendation to revise the menu scripts for the general tax law line and Business
and Specialty Tax Line and submit them for independent usability testing prior to
implementation. He stated that changes to the menu scripts implemented during the
2003 Filing Season improved performance drastically and that, when future menu
changes are made, the IRS will modify its process to allow time for independent
usability testing. The Commissioner disagreed with our recommendation to establish
separate toll-free numbers for general account calls and tax law/procedural calls. He
stated that general account and tax law/procedural calls are closely related and it would
be difficult for customers to differentiate between the two services.
The Commissioner, W&I Division, disagreed with our estimate that the use of call
screeners had resulted in additional costs. He stated the IRS’ analysis showed that,
when compared to the prior year, the screener strategy resulted in a savings of over
$1.1 million from January through June 2003.
The Commissioner, W&I Division, disagreed with our recommendations to reduce
Assistor Availability. He stated the specific recommended actions are already standard
practices that are performed as part of the IRS’ ongoing evaluation, assessment, and
planning processes. The Commissioner also disagreed with our estimate of the costs
associated with Assistor Availability during the 2003 Filing Season.
In part, the Commissioner, W&I Division, agreed with our recommendation to develop
an Activity-Based Costing system. He stated that the IRS Chief Financial Officer is
implementing a comprehensive IRS-wide solution to modernize the accounting system
and that, when it is successfully implemented, the IRS will develop costing information
at the toll-free product line level, if sufficient detailed information is available for
analysis.
Management’s complete response to the draft report is included as Appendix V.
Office of Audit Comment: While the current call routing system may not be able to
support the use of key numerical identifiers without costly upgrades, we believe the IRS
                                            5


must continue to pursue a more efficient automated alternative to the process of using
call screeners to manually route incoming tax law calls. The IRS’ calculation of the cost
benefits of its screener strategy incorrectly compares FY 2003 performance with that of
FY 2002, when the CC 2001 call routing technology failed to route calls as intended.
Our estimate takes into consideration the impact the call routing technology should have
had if it had been effective and the current annual cost of screeners as a result of the
routing technology not working as anticipated.
Independent usability studies showed that the main complaint about the IRS toll-free
telephone system was the menu scripts. The IRS provided no compelling support to
show that changes to the menu scripts had any effect on improved performance during
the 2003 Filing Season. However, even if it is assumed that they had a positive effect, it
is clear that additional improvements are still needed. In fact, the W&I Division’s
Program Letter for 2004 lists reducing the call transfer rate as one of its challenges for
2004.
We continue to believe our recommendation to provide separate toll-free telephone
numbers for general account calls and tax law/procedural calls has merit. With the
proper customer education on the separate numbers, we believe taxpayers would enjoy
less cumbersome menu scripts and experience fewer routing problems.
We are encouraged that the IRS assesses, on an on-going basis, whether applications
would benefit by a more pooled environment. Continued attention towards pooling work
groups where possible can lead to greater efficiencies. The IRS did not have readily
accessible data on availability by application for the 2003 Filing Season, although it has
requested that these data be added to its management information system in FY 2004.
Once these data become available, we will assess the effectiveness of the IRS’ actions
in this area. We continue to believe the IRS needs to address the large difference
between its planned availability and actual availability. In our report on the 2002 Filing
Season, we recommended that the IRS explore ways to make the forecast more
accurate. The IRS disagreed with that recommendation, stating its methodology is an
accepted industry practice that has been used to successfully forecast demand.
However, the variance in planned and actual Assistor Availability in FY 2003 shows this
is not always the case.
During the course of this audit, we were informed that call demand was extremely low
between 6 and 7 a.m. Central Time (CT) and somewhat higher, but still low, between
7 and 8:30 a.m. Demand was also low after 8 p.m. Pacific Time. We still believe the
IRS should consider staffing adjustments to these time periods to reduce availability.
Furthermore, despite the IRS’ disagreement with this recommendation, the W&I
Division’s FY 2004 Customer Account Services Work Plan – Planning Assumptions
states, “As we have increased service levels, customer demand shifted away from
evening hours and weekends. To the extent possible, staffing patterns will mirror
                                                 6


demand, resulting in a shift of staffing to the Monday through Friday core hours of 9:00
to 20:00 CT.”9
While we still believe that all of our recommendations are worthwhile, we do not intend
to elevate our disagreement concerning these matters to the Department of the
Treasury for resolution.
Copies of this report are also being sent to the IRS managers who are affected by the
report recommendations. Please contact me at (202) 622-6510 if you have questions or
Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (215) 516-2341.




9
    This is equivalent to 9 a.m. to 8 p.m. CT.
    Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                          Additional Enhancements Are Needed




                                                  Table of Contents


Background ............................................................................................... Page 1
Taxpayers Experienced Improved Access to the
Toll-Free Telephone System During the 2003 Filing Season ................... Page 3
Call Routing Problems Continue to Add to Taxpayer Burden and
the Costs of Providing Toll-Free Telephone Services................................ Page 10
         Recommendation 1: ..................................................................... Page 16
         Recommendations 2 and 3: .......................................................... Page 18

Continuing High Assistor Availability Levels Are Adding
to the Costs of Providing Toll-Free Telephone Services............................ Page 19
         Recommendations 4 and 5: .......................................................... Page 22
         Recommendation 6: ...................................................................... Page 23

An Activity-Based Costing System Is Needed to Evaluate
the Efficiency of the Toll-Free Telephone System Operations................... Page 24
         Recommendation 7: ...................................................................... Page 26

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 28
Appendix II – Major Contributors to This Report........................................ Page 31
Appendix III – Report Distribution List ....................................................... Page 32
Appendix IV – Outcome Measures ............................................................ Page 33
Appendix V – Management’s Response to the Draft Report ..................... Page 36
    Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                          Additional Enhancements Are Needed

                                  The Internal Revenue Service’s (IRS) toll-free telephone
Background
                                  system is the contact method most taxpayers choose when
                                  seeking answers to tax law questions or trying to resolve tax
                                  account-related issues. Taxpayers called the IRS toll-free
                                  telephone system over 50 million times1 during the 2003
                                  Filing Season.2 The IRS’ strategy for handling this
                                  significant customer demand is to direct those taxpayers
                                  with less complicated issues to its automated services
                                  (i.e., recorded information and interactive applications3) and
                                  allow its Customer Service Representatives (CSR) to assist
                                  taxpayers with more difficult issues.
                                  The Congress, General Accounting Office, National
                                  Taxpayer Advocate, and Treasury Inspector General for Tax
                                  Administration (TIGTA) have raised continuing concerns
                                  about the IRS’ ability to effectively meet the significant
                                  annual taxpayer demand for access to its toll-free telephone
                                  system. Over the past several years, the IRS has made many
                                  technological changes, as well as organizational and process
                                  changes, to its toll-free telephone system in an effort to
                                  provide taxpayers with better access and improve the quality
                                  of its service. In addition to substantial efforts to improve
                                  the performance of its toll-free telephone system operations,
                                  the IRS has taken other actions that should reduce taxpayer
                                  demand for this type of service. These actions include
                                  implementing an Electronic Tax Law Assistance program in
                                  which taxpayers can ask the IRS tax law questions via the

                                  1
                                    These 50 million calls include only those made to the IRS’ 8 main
                                  customer service lines that are provided for tax law, account, and refund
                                  questions, as well as the automated TeleTax system. The TeleTax
                                  system allows taxpayers to check the status of their current year refunds
                                  or listen to recorded tax information on a variety of topics by selecting a
                                  number that corresponds to 1 of approximately 150 specific tax topics.
                                  These 50 million calls do not include approximately 14 million calls that
                                  represent after-hours calls and plus or minus the net of transfers in/out of
                                  these lines that the IRS considers part of its total call demand.
                                  2
                                    The Filing Season is the period from January through mid-April of
                                  each year during which most individual income tax returns are filed. All
                                  references to the 2003 Filing Season made in this report, unless
                                  otherwise specified, are for the period from January 1 to April 19, 2003.
                                  3
                                    The Telephone Routing Interactive System that can provide refund
                                  status information to the caller via automation, permit callers using a
                                  touch-tone telephone to set up an installment agreement to settle a
                                  delinquent tax debt, and provide a payoff amount for an outstanding
                                  balance due.
                                                                                                     Page 1
Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                      Additional Enhancements Are Needed

                              Internet, enhancing the IRS web site to provide many types
                              of information to taxpayers including the ability to inquire
                              about the status of their refunds, and increasing electronic
                              filing options.
                              We performed this review because, in spite of these positive
                              actions taken by the IRS, criticisms of its toll-free telephone
                              services were raised regarding the 2002 Filing Season. For
                              example, an October 2002 assessment of the IRS telephone
                              services by the National Society of Accountants stated that
                              the IRS, “must increase first-call resolutions, decrease
                              waiting times, and lower the abandon4 rates.”5 In addition,
                              in its April 2003 Annual Report to the President and the
                              Congress, the IRS Oversight Board stated that while access
                              to the toll-free telephone system had improved, it was not at
                              a level that was acceptable to the Board because only 7 out
                              of 10 callers were assisted in Fiscal Year (FY) 2002.
                              To perform this audit, we monitored the performance of the
                              IRS toll-free telephone system during the 2003 Filing
                              Season. The audit was conducted at the IRS Joint
                              Operations Center (JOC)6 in Atlanta, Georgia, from
                              January through June 2003 in accordance with Government
                              Auditing Standards.
                              During the audit, we identified opportunities for the IRS to
                              improve access to its toll-free TTY/TDD7 services for
                              hearing- and speech-impaired taxpayers. These services are
                              provided on a separate toll-free line that uses special
                              equipment allowing users to communicate with the IRS
                              through text messages that each party alternately sends via a
                              keyboard. Because the demand for these services is
                              extremely small in comparison to the demand for services




                              4
                                In an abandoned call, the caller hangs up before reaching a CSR or
                              receiving automated assistance.
                              5
                                The Bureau of National Affairs, Inc., Daily Tax Report,
                              (G-3, November 4, 2002).
                              6
                                The JOC is the function from which the IRS toll-free telephone system
                              is centrally managed.
                              7
                                The term TTY/TDD is an abbreviation for “Teletype” and
                              “Telecommunications Device for the Deaf.”
                                                                                             Page 2
     Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                           Additional Enhancements Are Needed

                                   on other IRS toll-free lines, a separate audit report8 was
                                   issued to present the issues in proper perspective.
                                   Detailed information on our audit objective, scope, and
                                   methodology is presented in Appendix I. Major
                                   contributors to the report are listed in Appendix II.
                                   Many aspects of the taxpayer experience in accessing the
Taxpayers Experienced
                                   IRS toll-free telephone system were significantly improved
Improved Access to the
                                   during the 2003 Filing Season. This improvement is
Toll-Free Telephone System
                                   reflected in many of the measures9 the IRS uses to gauge the
During the 2003 Filing Season
                                   performance of its toll-free telephone system. For example,
                                   Table 1 shows that CSRs answered more calls in FY 2003
                                   and fewer taxpayers abandoned their calls before reaching a
                                   CSR.
                                       Table 1: More Taxpayers Were Helped by CSRs and Fewer
                                            Taxpayers Hung Up Before Receiving Assistance
                                       Filing         Calls Answered        Primary           Secondary
                                       Season            by CSRs           Abandons10         Abandons
                                        2003            13,788,464            19.3%              11.7%
                                        2002            13,744,104            26.7%              18.1%
                                     Difference            44,360         ( 7.4%)            ( 6.4%)
                                   Source: Weekly Enterprise Snapshot Reports for April 20, 2002, and
                                   April 19, 2003.




                                   8
                                     The Internal Revenue Service Has Opportunities to Provide
                                   Hearing- and Speech-Impaired Taxpayers With Easier Access to
                                   Toll-Free Telephone Services (Reference Number 2003-30-111,
                                   dated May 2003).
                                   9
                                     The IRS uses a different methodology than does the TIGTA for
                                   calculating some of the performance measures cited in this report. We
                                   used the same methodology as we have in prior years for comparative
                                   purposes. The differences in the results produced by the IRS’ and our
                                   methodologies were generally insignificant and did not affect the overall
                                   audit conclusions. For example, in Table 1 above, the IRS’
                                   methodology for counting primary and secondary abandons resulted in a
                                   difference of 8.5 percent and 6.0 percent, respectively, when comparing
                                   the 2003 and 2002 Filing Seasons.
                                   10
                                      A primary abandon is distinguished from a call that reaches the CSR
                                   queue and then disconnects. Those calls are classified as secondary
                                   abandons. Primary abandons occur when callers either 1) dialed the
                                   wrong number, 2) disconnected before completing an automated routing
                                   script, or 3) chose to use an automated service but disconnected before
                                   completing the service.
                                                                                                    Page 3
Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                      Additional Enhancements Are Needed

                              Taxpayers that called the IRS with account- or
                              refund-related questions were also served more quickly in
                              the 2003 Filing Season. In comparison to the prior filing
                              season, the Average Speed of Answer (ASA)11 for account
                              calls decreased from 273 seconds to 142 seconds, and the
                              ASA for refund calls decreased from 315 seconds to
                              79 seconds. In concert with the ASA, the Assistor Response
                              Level (ARL)12 increased from 50.7 percent to 56.6 percent
                              for account calls and from 35.7 percent to 69.2 percent for
                              refund calls. Thus, for these last two categories, wait time
                              was reduced for a greater percentage of callers.
                              According to data received from the IRS, the CSR Level of
                              Service (LOS), the IRS’ primary measure of providing
                              callers with access to a live assistor, increased from
                              69.6 percent during the 2002 Filing Season to 83.2 percent
                              in the 2003 Filing Season. For the specific customer service
                              lines that we reviewed, the CSR LOS for 2003 ranged from
                              80.4 percent to 91.9 percent.
                              Despite our continued concern13 with the IRS’ formula for
                              computing the CSR LOS, we concur that access to the
                              toll-free telephone system was significantly improved for
                              the 2003 Filing Season. For example, we computed an LOS
                              measure by dividing the number of calls that were answered
                              by the number of net call attempts. The result showed an
                              increase of 12.9 percent, from a 56.5 percent LOS in 2002
                              to a 69.4 percent LOS in 2003.




                              11
                                 The ASA is the average length of time a caller spends waiting in a
                              queue for a CSR to answer the call.
                              12
                                 The IRS defines the ARL as the total number of “services” delivered
                              within the threshold of 30 seconds divided by the total services handled.
                              The IRS defines a “service” as any call received by a CSR regardless of
                              whether it is an original call attempt or a transferred call.
                              13
                                 In an audit report on the 2002 Filing Season, Significant Efforts Have
                              Been Made to Provide Taxpayers Better Access to the Toll-Free
                              Telephone System, but Additional Improvements Are Needed (Reference
                              Number 2003-30-001, dated October 2002), we expressed concern with
                              the validity of this measure because it excluded primary abandoned calls
                              and, therefore, may not accurately portray the ease with which taxpayers
                              gain access to a CSR.
                                                                                               Page 4
Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                      Additional Enhancements Are Needed

                              The IRS implemented new initiatives to improve access
                              For 2003, the IRS implemented a number of initiatives to
                              improve the taxpayer experience when calling the toll-free
                              telephone system. Some of those initiatives identified by
                              the IRS are:
                              •    Customer Contact Center Optimization (CCCO)
                                   Project – The CCCO Project14 resulted in changes,
                                   implemented in October 2002, to the toll-free telephone
                                   system that were designed to support increased
                                   specialization and ensure that callers reached an assistor
                                   with the appropriate skills to help them. This involved
                                   grouping the CSRs into specialized skill areas and
                                   implementing a skill-based routing process that matches
                                   each caller with a CSR who has the specialized skills
                                   needed to handle the call.
                              •    IRS Toll-Free Vision and Marketing Strategy – This
                                   strategy involved the implementation of six new
                                   toll-free numbers in December 2002. The new numbers
                                   were intended to ensure that callers are directed to the
                                   appropriate resource through the use of scripts that are
                                   tailored to each number. These changes are part of a
                                   new toll-free telephone system strategy to improve
                                   customer service by targeting customer segments and
                                   creating more accountability. Two of the new numbers
                                   (the Refund Hotline and the Business and Specialty Tax
                                   Line) were advertised in public news releases. The
                                   other four are Customer Response Lines for the numbers
                                   that appear on taxpayer account notices sent to taxpayers
                                   when they owe taxes or have not filed returns.
                              •    Call Site and Workforce Specialization – Five call
                                   sites were realigned from the Small Business/
                                   Self-Employed (SB/SE) Division to the Wage and
                                   Investment (W&I) Division in October 2002. The two
                                   Divisions assumed individual ownership of each of the



                              14
                                The former IRS Commissioner launched the CCCO Project in
                              July 2000. The mission was to improve the quality of nonface-to-face
                              communication between the IRS and its customers through the
                              consolidation and specialization of the toll-free telephone system
                              workload.
                                                                                            Page 5
Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                      Additional Enhancements Are Needed

                                   six new toll-free numbers. This initiative contributed to
                                   further site and workload specialization.
                              •    Enhancements to Automated Platforms – The
                                   Telephone Routing Interactive System was revised to
                                   reduce multiple call attempts by providing additional
                                   information, such as the anticipated refund delivery
                                   date, in lieu of referring the caller to another number.
                              •    Screener Strategy – This strategy was implemented in
                                   October 2002 to address the problems with the complex
                                   automated call routing menu scripts that had caused high
                                   levels of abandoned and transferred calls during the
                                   2002 Filing Season. Prior to the 2002 Filing Season,
                                   screeners were used to route many categories of calls,
                                   including tax law.15 However, in 2002, the IRS
                                   attempted to automate the routing for tax law calls. This
                                   effort was unsuccessful, and the IRS reverted to using
                                   specially trained CSRs during the 2003 Filing Season to
                                   screen incoming tax law calls to the primary toll-free
                                   line (800-829-1040, or the 1040 line).16 The screener
                                   who answered the call determined the taxpayer’s
                                   specific question or issue and then transferred the call to
                                   the appropriate application.
                                   The Screener Strategy significantly decreased the
                                   number of tax law calls that were transferred once they
                                   reached an application. However, we have concerns
                                   with the efficiency of this practice that are addressed
                                   later in this report.
                              Decreased demand contributed to the improved access
                              In addition to those initiatives mentioned above, the IRS
                              took several significant actions that likely contributed to the


                              15
                                 Some manual screening of calls is a necessary function in a complex
                              call center environment such as the IRS. Screeners route callers that are
                              unable or unwilling to navigate scripts, as well as callers using rotary
                              telephones.
                              16
                                 This line is intended for calls from individual taxpayers that need
                              answers to tax law, procedural, or general account questions. Provided
                              that the callers chose the correct menu options, tax law calls were routed
                              to screeners, procedural and account calls were routed directly to the
                              appropriate applications, and any refund calls were routed to an
                              automated service.
                                                                                                Page 6
Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                      Additional Enhancements Are Needed

                              decreased call demand during the 2003 Filing Season. The
                              substantial decrease in call attempts was a factor in the IRS’
                              ability to provide taxpayers with improved access to the
                              toll-free telephone system during the 2003 Filing Season.
                              Net call attempts, including calls to the automated TeleTax
                              system, were down by more than 30.5 million (38 percent)
                              in comparison to the 2002 Filing Season. Excluding the
                              TeleTax system calls, net call attempts17 to the 8 main
                              toll-free customer service lines decreased by 12.9 million
                              (34 percent).
                              Actions taken by the IRS included:
                              •    An Internet Refund Fact of Filing (IRFOF) service was
                                   implemented that allowed taxpayers to check the status
                                   of their tax refunds by accessing the IRS web site
                                   (www.irs.gov). During the 2003 Filing Season,
                                   12.4 million taxpayers accessed the IRFOF application,
                                   and 8.8 million taxpayers successfully completed and
                                   received refund status information. When taxpayers use
                                   the Internet to check the status of their refunds, it is
                                   anticipated that they will be less likely to also check the
                                   status by calling the IRS toll-free telephone system.
                              •    The IRS has taken a number of actions in recent years to
                                   encourage the electronic filing of tax returns. In 2003,
                                   taxpayers could use the IRS Internet web site to access
                                   commercial tax preparation software and electronic
                                   filing services at no cost. Table 2 shows that the number
                                   of practitioner-filed electronic returns increased by more
                                   than 10 percent during the 2003 Filing Season and that
                                   the number of tax returns filed by home computer
                                   increased by almost 27 percent. An internal study by the
                                   IRS has shown that practitioner-prepared returns result
                                   in far fewer calls to the IRS than self-prepared returns.
                                   Because the proper handling of many tax law issues is
                                   programmed into tax preparation software packages, it is
                                   also probable that taxpayers using electronic filing
                                   methods would be less likely to call the IRS with tax
                                   law questions.


                              17
                                 The IRS prefers the use of total call attempts (see Footnote 1 in this
                              report for more information) for this calculation. Using total call
                              attempts, the decrease in demand was only 19.7 percent.
                                                                                                 Page 7
Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                      Additional Enhancements Are Needed

                                            Table 2: Electronic Filing Increased for the
                                                        2003 Filing Season
                                   Type             2002              2003          Increase      Change
                                                                                     (number)     (percent)
                               Practitioner       32,476,000        35,783,000      3,307,000       10.2%
                               Home
                               Computer            9,145,000        11,583,000      2,438,000       26.7%
                                  Total       41,621,000       47,366,000      5,745,000      13.8%
                              Source: IRS Cumulative Filing Season Statistics, April 18, 2003.

                              •    When taxpayers are able to successfully access the IRS
                                   toll-free telephone system on their first attempt, they are
                                   less likely to call back, thus reducing the total call
                                   attempts. Table 3 shows that the changes made to the
                                   toll-free telephone system resulted in about 2.3 million
                                   fewer “blocked” calls18 during the 2003 Filing Season.
                               Table 3: Fewer Calls Were Blocked During the 2003 Filing Season
                                                        2002           2003        Decrease       Change
                                                                                    (number)      (percent)
                               Total Blocked
                               Calls              3,413,644         1,072,850       2,340,794      -68.7%
                              Source: IRS Snapshot Table.

                              While it is not possible to definitively identify all of the
                              reasons for the significant decrease in customer demand for
                              toll-free telephone services, another probable factor was the
                              relatively few major tax law changes affecting returns filed
                              in 2003. Significant tax law changes can cause large
                              increases in taxpayer demand for toll-free telephone
                              services. In the 2002 Filing Season, for example, the IRS
                              attributed part of the problem that taxpayers experienced in
                              getting through to the toll-free telephone system to the




                              18
                                 A “blocked” call cannot be connected immediately because either no
                              circuit is available at the time the call arrives (i.e., the caller receives a
                              busy signal) or the system is programmed to block calls from entering
                              the queue when the queue backs up beyond a defined threshold (i.e., the
                              caller receives a recorded announcement to call back at a later time).
                              The IRS refers to the latter type of call as a “courtesy disconnect.”
                                                                                                    Page 8
Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                      Additional Enhancements Are Needed

                              influx of calls received concerning the changes to the tax
                              forms that were necessitated by the Rate Reduction Credit.19
                              Access for Spanish-speaking taxpayers improved in 2003
                              The IRS successfully continued its efforts to improve the
                              access for Spanish-speaking taxpayers to toll-free telephone
                              services. For the 2003 Filing Season, the IRS increased its
                              hiring of bi-lingual (i.e., English- and Spanish-speaking)
                              CSRs by approximately 10 percent. The number of services
                              provided to Spanish-speaking taxpayers increased from
                              725,188 in the 2002 Filing Season to 773,833 during the
                              2003 Filing Season – an increase of 6.7 percent. An
                              additional indication of the improved service to
                              Spanish-speaking taxpayers is that the number of calls
                              transferred decreased. When screener-transferred calls20 are
                              omitted, the number of calls from Spanish-speaking
                              taxpayers that were transferred from 1 CSR to another
                              decreased by 18 percent, from 123,836 during the
                              2002 Filing Season to 101,581 during the 2003 Filing
                              Season.
                              The IRS has already made plans to further improve access
                              for Spanish-speaking taxpayers. Of the approximately
                              400 new CSRs that the IRS plans to hire for FY 2004,
                              270 to 280 will be bi-lingual. At those call sites that handle
                              calls from Spanish-speaking taxpayers, all of the newly
                              hired CSRs will be bi-lingual.
                              Customer satisfaction surveys showed positive results
                              The W&I and SB/SE Divisions conduct separate customer
                              satisfaction surveys on a quarterly basis.21 The SB/SE
                              Division uses an outside contractor to conduct the surveys
                              and prepare the survey reports. Beginning with the first



                              19
                                 The Rate Reduction Credit is a specified dollar amount that taxpayers
                              could claim on their 2001 tax returns as a result of a reduction in the
                              income tax rates.
                              20
                                 Calls that went to specially trained CSRs to determine the taxpayer’s
                              specific question or issue in order to send the call to the correct
                              application.
                              21
                                 The W&I and SB/SE Divisions are jointly responsible for managing
                              the IRS toll-free telephone system. The W&I Division has 18 call sites
                              and the SB/SE Division has 8 call sites.
                                                                                               Page 9
    Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                          Additional Enhancements Are Needed

                                  quarter in FY 2003, the W&I Division began producing its
                                  own reports using the same data source.
                                  On January 1, 2003, a new customer satisfaction survey was
                                  implemented for both Divisions. In addition to containing
                                  different questions, the survey also had a change in the
                                  satisfaction rating scale, from a four-point to five-point
                                  scale. Consequently, comparisons cannot be made between
                                  the customer satisfaction ratings for 2003 and the ratings for
                                  previous years. The contractor will be converting prior
                                  surveys to a five-point scale so that comparisons can be
                                  made.
                                  For January through March 2003, the vast majority of
                                  taxpayers that completed customer satisfaction surveys gave
                                  the IRS a rating of 4 (“mostly satisfied”) or 5 (“completely
                                  satisfied”) regarding their experience in using the IRS
                                  toll-free telephone system.22 Although these ratings cannot
                                  be compared with those from prior quarters, the current
                                  results are impressive. For example, 95 percent of the
                                  callers surveyed for the W&I Division gave the IRS a rating
                                  of 4 or 5. Similarly, 92 percent of the callers surveyed for
                                  the SB/SE Division gave those same ratings.
                                  Although many continuing improvements have been made
                                  to the toll-free telephone system, the IRS still has
                                  opportunities to further enhance the taxpayer experience and
                                  reduce the costs of providing toll-free telephone services.
                                  The Customer Communications Project Fiscal Year 2001
Call Routing Problems
                                  Release (CC 2001), which became operational in
Continue to Add to Taxpayer
                                  August 2001, was intended to increase the IRS’ service
Burden and the Costs of
                                  levels to those of similar customer service operations in the
Providing Toll-Free Telephone
                                  private sector. One of the major system improvements
Services
                                  included in the CC 2001 was the capability to more
                                  accurately route taxpayer calls to the most appropriate IRS
                                  resource.23 With this improved capability, the IRS expected
                                  that taxpayers would have to spend less time speaking with
                                  screeners that help transfer calls to the right CSR and that,



                                  22
                                     The only taxpayers surveyed are a sample of those that complete their
                                  transaction with the IRS.
                                  23
                                     The specific costs for the call routing features of the CC 2001 were
                                  not available.
                                                                                                 Page 10
Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                      Additional Enhancements Are Needed

                              because of the improved menu system, callers could be
                              directed to the right CSR in a shorter time.
                              The CC 2001 call routing solution was not successful in
                              ensuring that calls were routed to the correct applications.
                              During the 2002 Filing Season, for example, 29 percent of
                              the calls to the IRS were transferred after they were routed
                              to applications.24 The highest transfer rate (63 percent)
                              involved tax law calls. By comparison, 17 percent of the
                              calls to the IRS were transferred during the filing season
                              prior to the deployment of the CC 2001 call routing
                              solution.
                              Although the CC 2001 call routing solution had been tested
                              to assure that calls arrived at the correct application given
                              the menu selection made by the caller, taxpayers were often
                              unable to understand the complex menu scripts and make
                              the proper selections. As a result, their calls often ended up
                              in the wrong applications. These call routing problems
                              created additional costs for the IRS.
                              While the IRS made changes to the menu scripts early in the
                              2002 Filing Season that helped to address the call transfer
                              problem, the changes had limited success. Consequently,
                              the IRS recognized the need for longer-term solutions and,
                              prior to the 2003 Filing Season, implemented three specific
                              actions to reduce the customer burden caused by
                              unnecessary call transfers. These actions included the
                              introduction of six new toll-free numbers, enhanced
                              skill-based routing, 25 and the use of CSRs as screeners for
                              tax law calls.
                              Even with these changes, call transfers remain a problem for
                              the IRS. During the 2003 Filing Season, calls routed to
                              27 of the 45 applications in the tax law, procedural, and
                              account categories were transferred at rates ranging from

                              24
                                 The original CSR to whom the call was routed transferred the call to
                              another CSR.
                              25
                                 Skill-based routing is designed to better use available staff.
                              Previously, a call was routed to any CSR who had received training to
                              answer that particular type of call. This year, CSRs were assigned to
                              primary and secondary applications according to their specialized skill
                              levels. Calls were routed to a primary application first. When no CSRs
                              in that primary application were available, the calls were routed to a
                              CSR who had that type of skill as a secondary application.
                                                                                            Page 11
Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                      Additional Enhancements Are Needed

                              15.7 percent to 67.8 percent. IRS management believes that
                              a 15 percent transfer rate is an appropriate target for the
                              agency to meet world-class standards.26
                              The use of call screeners reduced transfers in the
                              majority of tax law applications
                              In lieu of having taxpayers navigate a complex menu script,
                              the IRS used screeners for tax law calls received on the
                              1040 line during the 2003 Filing Season. In comparison to
                              the prior year, this change resulted in far fewer taxpayers
                              having their calls transferred from one CSR to another after
                              they reached a tax law application. In 2003, for example,
                              the call transfer rates decreased, sometimes significantly, for
                              18 of the 21 tax law applications for individual taxpayers.
                              However, the transfer rates actually increased for the
                              remaining 3 tax law applications and remained higher than
                              15 percent in many of the other tax law applications that
                              showed a decrease from a year ago. For example, 1 tax law
                              application still had a transfer rate of more than 40 percent,
                              and another had a transfer rate of nearly 35 percent.
                              While the use of call screeners for tax law calls during the
                              2003 Filing Season may have been the only viable
                              short-term solution to the high transfer rates experienced
                              during the prior filing season, it resulted in all calls for tax
                              law assistance being transferred at least once (i.e., from a
                              screener to a CSR) whereas, in the 2002 Filing Season,
                              37 percent of the taxpayers calling for tax law assistance
                              experienced no transfers. In addition, the use of screeners to
                              route calls is a more costly alternative than the use of
                              automation. In the long term, automated routing is the only
                              way to significantly reduce these costs.
                              Routing problems were experienced with other types of
                              calls to the 1040 line
                              Even though screeners were used for tax law calls, all
                              taxpayers that called the 1040 line had to initially respond to
                              an automated menu script. If the tax law callers responded


                              26
                                During the 2002 Filing Season, we conferred with a call center
                              management consultant to analyze and interpret the IRS’ call center
                              performance data. He stated that a reasonable transfer rate for the IRS
                              would be 5 percent.
                                                                                              Page 12
Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                      Additional Enhancements Are Needed

                              correctly to the first two menu options, they were connected
                              to a screener. Other callers to this line (i.e., those with
                              account, procedural, or refund questions) were prompted
                              through an automated script that was designed to either
                              provide them information through automation or send them
                              to a CSR for assistance.
                              During the 2003 Filing Season, however, callers with
                              account, procedural, or refund questions frequently selected
                              menu options that sent them to screeners rather than directly
                              to the appropriate applications.27 Table 4 shows that nearly
                              one-half of the English calls and more than 70 percent of the
                              Spanish calls transferred by the screeners did not go to tax
                              law applications.
                                             Table 4: Calls Transferred by Screeners
                                              to Applications Other Than Tax Law
                               Language         Account        Procedural        Refund           Total
                                   English       34.7%           12.4%            0.4%            47.5%
                                Spanish       61.1%          9.8%                  2.4%           73.3%
                              Source: IRS Agent Transfer Reports.

                              The IRS did not have an independent usability test
                              conducted prior to implementing the new routing scripts for
                              the 1040 line. A subsequent usability test completed by a
                              contractor identified problems with the routing scripts that
                              could cause taxpayers to make wrong menu selections.28
                              Unfortunately, taxpayers that realized they had made a
                              wrong selection could not back up in the system.
                              Some business taxpayers also experienced routing
                              problems
                              Taxpayers that called the Business and Specialty Tax Line
                              (800-829-4933, or the 4933 line)29 during the 2003 Filing
                              Season navigated through automated menu scripts rather


                              27
                                 As previously mentioned in this report, some manual screening of
                              calls is necessary for callers that are unable or unwilling to navigate
                              menu scripts and for callers using rotary telephones.
                              28
                                 The contractor’s report on the results of the usability tests stated that it
                              was not intended to render statistically significant results or to study
                              trends.
                              29
                                 A new line for small businesses, corporations, partnerships, and trusts
                              that need information and/or help related to their business returns or
                              business accounts.
                                                                                                   Page 13
Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                      Additional Enhancements Are Needed

                              than speaking with call screeners. All calls (i.e., tax law,
                              procedural, and account) to this line were automatically
                              routed to applications based on the menu selections made by
                              the callers.
                              While there is not a definitive relationship between this
                              dialed number and the 8 business and specialty
                              applications,30 the IRS advised us that this dialed number
                              likely handled a high percentage of these applications.
                              Furthermore, it is clear that, in some instances, far too many
                              taxpayers arrived at incorrect applications that required their
                              calls to be transferred. For example, the transfer rates for
                              3 of the 8 business and specialty applications exceeded
                              15 percent, including 2 applications that had transfer rates of
                              54.2 percent and 45.6 percent. The number of calls handled
                              in these 3 applications represented about 30 percent of the
                              total calls handled in the 8 business and specialty
                              applications; however, the 2 applications with the highest
                              transfer rates handled only 11.2 percent of these total calls.
                              In January 2003, the IRS used a contractor to conduct a
                              usability test on the Business and Specialty Tax Line. The
                              contractor’s report31 included the following overall analysis:
                                       Most participants had significant problems
                                       interacting with the system. The majority of the
                                       problems stemmed from the difficulty of presenting,
                                       in a clear and intuitively organized manner, the
                                       large number of options corresponding to the tax
                                       issues that this system deals with.
                              Call routing problems add to the costs of providing
                              toll-free telephone services and create taxpayer burden
                              A very important effect of the IRS’ decision to revert to the
                              use of screeners to route tax law calls in 2003 is that any
                              improvement in accurately routing the calls came at a
                              significant cost. Using the IRS’ planning data for the
                              2002 Filing Season, when the CC 2001 call routing solution
                              was expected to eliminate much of the need for screeners by


                              30
                                 Other dialed numbers are routed or transferred to these applications.
                              31
                                 The contractor’s report on the results of the usability test stated that it
                              was not intended to render statistically significant results or to study
                              trends.
                                                                                                   Page 14
Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                      Additional Enhancements Are Needed

                              automatically routing calls, we calculated the percentage of
                              planned call screener services to total planned services. We
                              then applied that percentage to the actual services for
                              FY 2003, through June 2003, to determine the baseline
                              screener services that should have occurred had the
                              CC 2001 call routing solution worked as planned. We
                              estimate that the IRS used nearly 109 additional
                              Full-Time Equivalents (FTE)32 for screeners in FY 2003 as a
                              result of the CC 2001 call routing solution problems. The
                              minimum cost for these additional FTEs, through
                              June 2003, was $3.6 million.33
                              Beyond the costs of hiring screeners, call routing problems
                              add other costs to providing toll-free telephone services.
                              When calls are misrouted and must be transferred, CSR talk
                              time is increased because the taxpayers have to repeat their
                              questions. Thus, the IRS’ cost to handle a call is increased
                              when the call is transferred, rather than completed, by the
                              first CSR it was sent to. Similarly, call transfers also result
                              in taxpayers having to spend more time on the telephone
                              that, in turn, can lead to additional burden. Additionally,
                              using more screeners in 2003 reduced the number of CSRs
                              that were available to directly take tax law calls.
                              The effect of the menu scripting problems on increased
                              taxpayer burden was evident from the usability study
                              report34 for the 1040 line. The study,35 performed by a
                              contractor in January 2003 using a group of participants,
                              found that problems with the “menu options” were, by far,
                              the main complaint about the system. According to the
                              study report, the participants found some of the verbiage
                              unclear, confusing, ambiguous, and not descriptive enough;
                              the menus seemed to lack options to satisfy some of the


                              32
                                 An FTE is a measure of labor hours. One FTE is equal to 8 hours
                              multiplied by the number of compensable days in a particular fiscal
                              year. For FY 2003, 1 FTE was equal to 2,088 staff hours.
                              33
                                 This cost is based on salaries and benefits at the Grade 5, Step 1, level
                              and at the lowest locality pay rate (i.e., “Rest of United States”).
                              Screeners are more likely to be a Grade 6, Step 1.
                              34
                                 SpeechWorks International, Inc., Test Results Usability Study
                              Version 1.0, February 24, 2003.
                              35
                                 The contractor’s report on the results of the usability tests stated that it
                              was not intended to render statistically significant results or to study
                              trends.
                                                                                                   Page 15
Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                      Additional Enhancements Are Needed

                              callers’ inquiries; and the organization of the options
                              seemed to be unclear, resulting in the callers not being able
                              to find what they needed and many times having to guess
                              which option to choose. The study report added that, even
                              when they had made the correct selection, most participants
                              did not feel confident they were on the right track to get the
                              help they needed.
                              A potential effect of complex menu scripts is that they can
                              cause taxpayers to abandon (i.e., hang up) their calls before
                              receiving assistance. This can lead to taxpayers having to
                              call back or possibly not receive assistance because they
                              find the toll-free telephone system too difficult to use.
                              When taxpayers have these types of difficulties in
                              attempting to contact the IRS, the IRS’ strategic goal of
                              providing top-quality service to each taxpayer in each
                              interaction is not being met. Consequently, the continued
                              improvement of the menu scripts is necessary.
                              An effective solution to the routing problem is needed
                              Despite the many actions taken by the IRS to overcome the
                              call routing problems caused by the ineffectiveness of the
                              CC 2001 call routing solution, this remains a major area for
                              improvement. While improving the menu scripts has been
                              necessary for solving a portion of the routing problems, the
                              revisions have not solved all of the routing problems, and
                              there continue to be high costs associated with excessive
                              call transfers in some applications. A more innovative
                              approach is clearly called for since traditional solutions have
                              not been effective in solving the root problem.

                              Recommendations

                              To address the call routing problems, the Directors,
                              Customer Account Services (CAS), SB/SE and W&I
                              Divisions, should:
                              1. Develop a set of key numerical identifiers that taxpayers
                                 would select to link their calls to the correct tax law
                                 application. One way of doing this would be to use
                                 topic numbers similar to those used in the IRS
                                 automated TeleTax system.


                                                                                     Page 16
Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                      Additional Enhancements Are Needed

                                   Management’s Response: The Commissioner, W&I
                                   Division, disagreed with this recommendation and stated
                                   there were no substantiated data or documentation
                                   associated with the recommendation to indicate this
                                   approach would be beneficial for tax law. He added the
                                   Intelligent Contact Manager system used to route
                                   taxpayer calls has systemic limitations that would not
                                   support this initiative without an extensive upgrade.
                                   The Commissioner also disagreed with our estimate that
                                   the use of call screeners during the 2003 Filing Season
                                   resulted in additional costs of $3.6 million. He stated
                                   the IRS’ analysis showed that, when compared with the
                                   prior year, the screener strategy resulted in a savings of
                                   over $1.1 million from January through June 2003.
                                   Office of Audit Comment: While the current call
                                   routing system may not be able to support the use of key
                                   numerical identifiers without costly upgrades, we
                                   believe the IRS must continue to pursue a more efficient
                                   automated alternative to using call screeners to manually
                                   route incoming tax law calls. The IRS has already
                                   established the effectiveness of a numerical
                                   identification system through its automated TeleTax
                                   system. In more than one instance, the IRS has also
                                   identified the importance of automation and changing
                                   the way it conducts business. For example, an IRS
                                   study36 stated that, “The most cost-effective activity is
                                   the one that is most automated and therefore cheapest
                                   because that would have the highest marginal indirect
                                   revenue to cost ratio.” In another example, one of the
                                   operational priorities identified in the W&I Division’s
                                   FY 2005 Strategic Assessment is to “Identify less costly
                                   methods of service delivery to reduce customer
                                   dependence on traditional methods of delivery, improve
                                   quality, and utilize resources more efficiently.”
                                   In our judgment, the IRS’ calculation of the cost benefits
                                   of its screener strategy is inflated because it compares
                                   FY 2003 performance with that of FY 2002, when the


                              36
                                The Impact of the IRS on Voluntary Tax Compliance: Preliminary
                              Empirical Results, Alan H. Plumley (November 2002, IRS Office of
                              Research).
                                                                                        Page 17
Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                      Additional Enhancements Are Needed

                                   CC 2001 call routing technology failed to route calls as
                                   intended. As stated in our report on the 2002 Filing
                                   Season,37 CSRs answered 1.73 million fewer calls in
                                   2002 than in 2001 and call transfers increased
                                   dramatically. Our estimate of the additional costs
                                   associated with the call screening strategy takes into
                                   consideration the impact the call routing technology
                                   should have had if it had been effective and the current
                                   annual cost of screeners as a result of the routing
                                   technology not working as anticipated.
                              2. Revise the menu scripts for the 1040 and 4933 lines and
                                 submit them for independent usability testing prior to
                                 implementation.
                                   Management’s Response: The Commissioner, W&I
                                   Division, disagreed with this recommendation. He
                                   stated that changes to the menu scripts implemented
                                   during the 2003 Filing Season improved performance
                                   drastically. He stated that, when future menu changes
                                   are made, the IRS will modify its process to allow time
                                   for independent usability testing.
                                   Office of Audit Comment: Independent usability
                                   studies showed that the main complaint about the IRS
                                   toll-free telephone system was with the menu scripts.
                                   The IRS provided no compelling support to show that
                                   changes to the menu scripts had any effect on improved
                                   performance during the 2003 Filing Season. However,
                                   even if it is assumed they had a positive effect, it is clear
                                   from the very high transfer rates in some applications
                                   that additional improvements are still needed. In fact,
                                   the W&I Division’s Program Letter for 2004 lists
                                   reducing the call transfer rate as one of its challenges for
                                   2004.
                              3. Implement separate toll-free numbers for general
                                 account calls and tax law/procedural calls.
                                   Management’s Response: The Commissioner, W&I
                                   Division, disagreed with this recommendation. He


                              37
                                Significant Efforts Have Been Made to Provide Taxpayers Better
                              Access to the Toll-Free Telephone System, but Additional Improvements
                              are Needed (Reference Number 2003-30-001, dated October 2002).
                                                                                          Page 18
      Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                            Additional Enhancements Are Needed

                                         stated that general account and tax law/procedural calls
                                         are closely related and it would be difficult for
                                         customers to differentiate between the two services. He
                                         added that the IRS had considered a similar idea as part
                                         of the Toll-Free Marketing Vision and Strategy but
                                         decided not to adopt it. He said the IRS believes
                                         retaining the name recognition associated with the
                                         1040 number to be more customer-focused.
                                         Office of Audit Comment: We continue to believe this
                                         recommendation has merit. The IRS implemented six
                                         new toll-free numbers in December 2002 to improve
                                         customer service by targeting customer segments. With
                                         the proper customer education on the separate numbers
                                         for account and tax law/procedural calls, we believe
                                         taxpayers would be exposed to less cumbersome menu
                                         scripts and, as a result, would experience fewer routing
                                         problems.
                                    Assistor Availability is the measure the IRS uses to
Continuing High Assistor
                                    calculate how long its CSRs are available to take calls when
Availability Levels Are Adding to
                                    none are coming in for their specific applications.38
the Costs of Providing Toll-Free
                                    Achieving the optimum Assistor Availability level is critical
Telephone Services
                                    for effective and efficient call site operations. When the
                                    Assistor Availability is too low, taxpayers calling for
                                    assistance may have to wait longer to speak with a CSR or,
                                    frustrated with the waiting time, may abandon their calls
                                    and call back at another time. When the Assistor
                                    Availability is too high, the CSRs’ time is not being
                                    productively used. Thus, funds are being spent that could
                                    be better used to provide additional services to taxpayers.
                                    In an audit of the 2002 Filing Season,39 we reported that the
                                    Assistor Availability was high and recommended IRS
                                    management review its decision to specialize the CSR
                                    workforce to determine whether some applications would




                                    38
                                       The IRS defines Assistor Availability as “the percent of actual
                                    workload hours spent in an available state.”
                                    39
                                       Significant Efforts Have Been Made to Provide Taxpayers Better
                                    Access to the Toll-Free Telephone System, but Additional Improvements
                                    Are Needed (Reference Number 2003-30-001, dated October 2002).
                                                                                                Page 19
Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                      Additional Enhancements Are Needed

                              benefit from a more pooled environment.40 We also
                              recommended that IRS management find ways to make the
                              forecasting of call demand more accurate and explore ways
                              to achieve greater flexibility in scheduling the CSRs to meet
                              the call demand. In response to these recommendations,
                              management committed to a number of alternative actions
                              that included establishing additional toll-free numbers,
                              enhancing the skill-based routing, providing screeners to
                              route tax law calls, and developing a training strategy for
                              2003 that would increase their flexibility to move
                              employees. For example, all CSRs would be trained in a
                              primary specialty and a back-up application.
                              Despite these actions, the overall Assistor Availability rate
                              increased to 11.2 percent during the 2003 Filing Season,
                              from 10.8 percent in the prior filing season. For FY 2003
                              through the end of June 2003, the overall Assistor
                              Availability rate had further increased to 12.15 percent, as
                              compared to 9.24 percent for the same period last year. The
                              IRS had planned for an Assistor Availability rate of only
                              5.5 percent in FY 2003.
                              If the IRS had achieved its planned Assistor Availability
                              rate through the end of June 2003, CSRs would have spent
                              401,355 fewer hours waiting for calls to arrive. We
                              estimated that the cost of this additional (i.e., actual versus
                              planned) availability in CSR salaries and benefits was
                              almost $6.4 million.
                              Through June 2003, the Assistor Availability rate ranged
                              from a low of 4.9 percent at 1 call site to a high of
                              18.4 percent at another site. The difference in Assistor
                              Availability among call sites is likely related to the types of




                              40
                                Under the pooling principle, a more efficient call site environment is
                              created by taking several small specialized groups of CSRs,
                              cross-training them, and putting them into a single group. The result is
                              that more CSRs are capable of handling any call that comes to the
                              group.
                                                                                              Page 20
Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                      Additional Enhancements Are Needed

                              applications that were handled at the various sites41 and to
                              whether there was alternate work for the CSRs to perform
                              when calls were not being received as expected.
                              The increased Assistor Availability rate in 2003 was likely
                              caused, at least in part, by the decrease in call demand. In
                              particular, call demand was very low early in the morning
                              and late in the evening. Assistor Availability rates are also
                              affected by the accuracy of the forecasted call demand
                              (which involves the difficult task of predicting the volume
                              of each type of call by arrival time in half-hour intervals)
                              and by the effectiveness of the scheduling process
                              (i.e., assigning CSRs to specific applications by half-hour
                              intervals to meet the incoming call demand).
                              The increased workforce specialization at the IRS call sites
                              has made forecasting and scheduling accuracy especially
                              critical. Throughout the call site industry, a characteristic of
                              the best-managed centers is that they find the right balance
                              between specialization and pooling and that they get as
                              close as possible to the pooled end of the spectrum, to
                              improve efficiency.42 A potential benefit of pooling is a
                              lower Assistor Availability rate.43




                              41
                                 Currently, IRS management does not have access to a system that
                              provides Assistor Availability rates by application although, on an “as
                              needed” basis, management can manually calculate this information.
                              The IRS has requested that this information be included as part of its
                              Enterprise Telephone Data Warehouse, which is accessible on the IRS
                              Intranet and provides users with extensive performance data about the
                              IRS toll-free telephone operations.
                              42
                                 Brad Cleveland and Julia Mayben, Call Center Management on Fast
                              Forward: Succeeding in Today’s Dynamic Inbound Environment
                              (Annapolis: Call Center Press 1997), 241-242.
                              43
                                 Dr. Vijay Mehrota, guest commentary for Purdue University’s Center
                              for Customer Driven Quality at
                              http://www.cfs.purdue.edu/conscript/CCDQ/guest_3.html (last updated
                              March 15, 2000).
                                                                                            Page 21
Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                      Additional Enhancements Are Needed

                              Recommendations

                              To address the continued high Assistor Availability rate, the
                              Directors, CAS, SB/SE and W&I Divisions, should:
                              4. Reevaluate, as recommended in our audit report on the
                                 2002 Filing Season,44 whether some applications would
                                 benefit by being combined into a more pooled
                                 environment.
                                   Management’s Response: The Commissioner, W&I
                                   Division, disagreed with this recommendation. He
                                   stated that assessments of the effectiveness of
                                   applications and agent groups are conducted on an
                                   ongoing basis.
                                   Office of Audit Comment: We are encouraged that the
                                   IRS assesses, on an ongoing basis, whether applications
                                   would benefit from a more pooled environment.
                                   Continued attention towards pooling work groups where
                                   possible can lead to greater efficiencies.
                              5. Determine those applications for which availability is
                                 highest and retrain the CSRs so they can be transferred
                                 as needed to those applications for which availability is
                                 lowest.
                                   Management’s Response: The Commissioner, W&I
                                   Division, disagreed and stated that the recommended
                                   process already occurs on an ongoing basis. He added
                                   that, in FY 2003, the IRS implemented skill-based
                                   routing that enabled it to designate backup agent groups
                                   for each application. He stated that variable business
                                   rules trigger the use of backup agent groups, minimizing
                                   their availability and improving overall service. He
                                   added that the use of skill-based routing, coupled with
                                   the increased level of account-trained CSRs in FY 2003,
                                   contributed to improved service.
                                   The Commissioner also disagreed with our estimate of
                                   the costs associated with Assistor Availability during the
                                   2003 Filing Season. He stated that our comparison of

                              44
                                Significant Efforts Have Been Made to Provide Taxpayers Better
                              Access to the Toll-Free Telephone System, but Additional Improvements
                              Are Needed (Reference Number 2003-30-001, dated October 2002).
                                                                                          Page 22
Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                      Additional Enhancements Are Needed

                                 planned availability to actual availability was flawed
                                 because planned availability was not a goal or a measure
                                 but a planning assumption used with other assumptions
                                 to formulate staffing schedules. Furthermore, he stated
                                 that the IRS’ research of industry benchmarks revealed
                                 an availability benchmark of 17 percent, while the IRS
                                 availability for the 2003 Filing Season was 11.2 percent.
                                 Office of Audit Comment: The IRS did not have readily
                                 accessible data on availability by application for the
                                 2003 Filing Season, although it has requested that these
                                 data be added to its management information system in
                                 FY 2004. Once these data become available, we will
                                 assess the effectiveness of the IRS actions in this area.
                                 We continue to believe the IRS needs to address the
                                 large difference between its planned availability and
                                 actual availability. In our report on the 2002 Filing
                                 Season, we recommended that the IRS explore ways to
                                 make the forecast more accurate. In disagreeing with
                                 that recommendation, IRS management stated its
                                 methodology is an accepted industry practice that has
                                 been used to successfully forecast demand. However,
                                 the variance in planned and actual Assistor Availability
                                 in FY 2003 shows this is not always the case.
                                 The IRS was unable to provide us with a copy of the
                                 document from which it quoted a 17 percent availability
                                 benchmark. Thus, we cannot comment on the
                                 applicability of this benchmark to IRS operations.
                                 However, the IRS FY 2004 SB/SE CAS Accounts
                                 Management Program Letter and Measures states that,
                                 “While the Agent Availability Plan for the year is
                                 8 percent, sites should strive to minimize the amount of
                                 agent availability.” In addition, the W&I Division’s
                                 Strategy and Program Plan for 2004 states that,
                                 “Additional refinements in how applications are grouped
                                 will reduce the number of transfers, improve customer
                                 satisfaction, and reduce the amount of available time.”
                                 These statements clearly indicate that availability is a
                                 concern of IRS management.
                              6. Reduce either staffing or hours of operation during those
                                 times of the day when call demand is extremely low.

                                                                                  Page 23
      Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                            Additional Enhancements Are Needed

                                         Management’s Response: The Commissioner, W&I
                                         Division, disagreed with this recommendation and stated
                                         this action is already done on an as needed basis. He
                                         also stated site hours, staffing and intra-day calling
                                         patterns are evaluated each year and appropriate changes
                                         are made based on the analysis. In addition, daily
                                         real-time adjustments to staffing are made to deal with
                                         changes in call demand and Assistor Availability as
                                         needed.
                                         Office of Audit Comment: In meeting with IRS
                                         managers during the course of this review, we were
                                         informed that call demand was extremely low between
                                         6 a.m. and 7 a.m. Central Time (CT) and somewhat
                                         higher, but still low, between 7 a.m. and 8:30 a.m. It
                                         was also low after 8 p.m. Pacific Time. We still believe
                                         the IRS should consider adjustments to these time
                                         periods to reduce availability. Furthermore, despite the
                                         IRS’ disagreement with this recommendation, the W&I
                                         Division’s FY 2004 Customer Account Services Work
                                         Plan – Planning Assumptions states, “As we have
                                         increased service levels, customer demand shifted away
                                         from evening hours and weekends. To the extent
                                         possible, staffing patterns will mirror demand, resulting
                                         in a shift of staffing to the Monday through Friday core
                                         hours of 9:00 to 20:00 CT.”45
                                    While the IRS has done some cost analyses of its toll-free
An Activity-Based Costing System
                                    telephone system operations, it has yet to develop accurate
Is Needed to Evaluate the
                                    cost-per-call data. Developing cost-per-call data is a
Efficiency of the Toll-Free
                                    difficult process for the IRS because it does not have a
Telephone System Operations
                                    financial system that will track program costs; however,
                                    management has initiated action to obtain a new financial
                                    system, scheduled for implementation in FY 2004, which
                                    will track program costs.
                                    An August 2001 TIGTA report46 recommended that the IRS
                                    develop a cost-per-call indicator. In responding to this
                                    report, the IRS provided information showing that the total
                                    cost-per-call answered for FY 2000 was $5.94 and that the


                                    45
                                      This is equivalent to 9 a.m. to 8 p.m. CT.
                                    46
                                      Better GPRA Quantity Indicators Are Needed for Toll-Free Telephone
                                    Service (Reference Number 2001-30-131, dated August 2001).
                                                                                               Page 24
Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                      Additional Enhancements Are Needed

                              projected cost-per-call for FY 2001 was $5.47. The IRS had
                              based its cost-per-call computation for FY 2001 on total
                              toll-free telephone system operating costs of $514.2 million.
                              However, another TIGTA report,47 also issued in
                              August 2001, found that, based on information largely
                              provided by the IRS, the total toll-free telephone system
                              costs for FY 2001 would be at least $627 million.
                              In October 2002, the IRS expanded and updated the cost
                              analysis contained in the second TIGTA report referred to in
                              the preceding paragraph. The IRS data, which had not been
                              finalized at the time we completed our current audit,
                              estimated the toll-free telephone system costs for FY 2002
                              at more than $690 million. This estimate was further broken
                              down into a cost-per-call of $22.09 for calls answered by
                              CSRs and a combined cost-per-call of $13.13 for all calls
                              answered (i.e., either by CSRs or automated services).
                              However, the IRS’ cost-per-call estimate for calls answered
                              by CSRs included some costs that are applicable only to
                              calls answered by automated services.
                              These examples show that further refinement is needed to
                              provide stakeholders, such as the Congress and the
                              IRS Oversight Board, with more accurate cost-per-call
                              information. In addition to not having accurate or separate
                              cost-per-call data for calls answered by CSRs and calls
                              answered by automated services, the IRS has not attempted
                              to determine the costs of providing toll-free telephone
                              services on its various product lines (i.e., tax law versus
                              account calls) or the costs of providing toll-free telephone
                              services to its customer segments (i.e., wage earner/investor
                              versus small business/self-employed). Best practices in the
                              call site industry suggest that cost-per-call data should
                              differentiate each type of contact and each type of service
                              provided.48
                              Federal Government agencies are under increasing pressure
                              to develop cost systems that link budget to performance.

                              47
                                 Management Advisory Report: The Estimated Cost of the Internal
                              Revenue Service’s Toll-Free Telephone Service Exceeds $600 Million
                              (Reference Number 2001-30-139, dated August 2001).
                              48
                                 Brad Cleveland and Debbie Harne, Call Center Operations
                              Management Handbook and Study Guide (Annapolis: Call Center
                              Press, 2003), Section 4, 30.
                                                                                          Page 25
Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                      Additional Enhancements Are Needed

                              Guidance from the Office of Management and Budget
                              (OMB) states that, “Agencies should strive to include goals
                              or indicators for unit cost, even if only approximate costs
                              can be estimated.”49 In addition, the Statement of Federal
                              Financial Accounting Standards Number 4, “Managerial
                              Cost Accounting Concepts and Standards for the Federal
                              Government,” contains several standards related to the
                              necessity for cost data. One costing method that has been
                              used by both private and public sector organizations is
                              Activity-Based Costing.
                              Without accurate cost-per-call measurements for each of the
                              various toll-free telephone services the IRS provides,
                              management and key stakeholders do not have sufficient
                              information with which to evaluate the efficiency of
                              toll-free telephone system operations, the return on
                              investment in technology and human capital, and the costs
                              and benefits of key program decisions. This concern will be
                              even more critical for the 2004 Filing Season when the IRS
                              plans a small pilot test to evaluate the feasibility of
                              outsourcing some tax law calls. Without accurate and
                              specific data on its own cost to answer this type of call,
                              IRS management will be unable to determine if outsourcing
                              is a cost-effective alternative for providing this type of
                              service.

                              Recommendation

                              To ensure that IRS management and key stakeholders can
                              monitor and evaluate the efficiency of the IRS toll-free
                              telephone system operations, the Directors, CAS, SB/SE
                              and W&I Divisions, should:
                              7. Develop an Activity-Based Costing system that reliably
                                 captures and reports both the total cost and the
                                 cost-per-call of providing services on each toll-free
                                 product line.




                              49
                                Preparation and Submission of Strategic Plans, Annual Performance
                              Plans, and Annual Program Performance Reports (OMB Circular A-11,
                              Part 2, dated July 1999).
                                                                                        Page 26
Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                      Additional Enhancements Are Needed

                                 Management’s Response: The Commissioner, W&I
                                 Division, stated that the IRS Chief Financial Officer is
                                 implementing a comprehensive IRS-wide solution to
                                 modernize the accounting system and that it is designed
                                 to meet the need for activity-based costing. When the
                                 system is successfully implemented, the IRS will
                                 develop costing information, at the toll-free product line
                                 level, if sufficient detailed information is available for
                                 analysis.




                                                                                   Page 27
       Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                             Additional Enhancements Are Needed

                                                                                                      Appendix I


                           Detailed Objective, Scope, and Methodology

The overall audit objective was to evaluate the Internal Revenue Service’s (IRS) ability to
provide taxpayers with effective access to its toll-free telephone system during the 2003 Filing
Season.1
To accomplish this objective, we:
I.       Reviewed the IRS’ plans for the toll-free telephone system for the 2003 Filing Season.
         A.       Analyzed IRS planning documents.
         B.       Analyzed workload planning for the 2003 Filing Season toll-free telephone
                  system.
         C.       Attended bi-weekly executive status meetings held by the IRS for the toll-free
                  telephone system.
II.      Reviewed the IRS processes for promptly responding to taxpayer access problems with
         the toll-free telephone system.
         A.       Participated in a walk-through at the IRS Joint Operations Center (JOC)2 to obtain
                  an understanding of current practices regarding toll-free telephone system
                  operations.
         B.       Determined how automated systems are monitored/tested to ensure that taxpayer
                  calls are properly routed.
         C.       Reviewed procedures for addressing identified access problems.
III.     Evaluated new business processes implemented by the IRS to improve taxpayer access to
         the toll-free telephone system.
         A.       Discussed the implementation of the Customer Communications Project
                  Fiscal Year 2001 Release with IRS management and analyzed documentation on
                  its effectiveness in improving taxpayer access to the toll-free telephone system.
         B.       Reviewed the IRS’ rationale and plans to employ additional call screeners for the
                  2003 Filing Season and determined what effect the change had on the Customer



1
  The Filing Season is the period from January through mid-April of each year during which most individual
taxpayers file their income tax returns. All references to the 2003 Filing Season made in this report, unless
otherwise specified, are for the period from January 1 to April 19, 2003.
2
  The JOC, located in Atlanta, Georgia, is the function from which the IRS toll-free telephone system is centrally
managed.
                                                                                                            Page 28
      Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                            Additional Enhancements Are Needed

                 Service Representative (CSR) Level of Service (LOS)3 based on Full-Time
                 Equivalent (FTE)4 costs and the number of calls answered by CSRs.
        C.       Discussed any changes to telephone applications with IRS management.
        D.       Discussed the establishment of any additional toll-free telephone numbers with
                 IRS management and determined the effectiveness of the additional numbers by
                 evaluating whether there was sufficient public information on the purpose of the
                 new numbers.
        E.       Coordinated with the Treasury Inspector General for Tax Administration
                 (TIGTA) audit5 team that is currently evaluating whether the Small Business/
                 Self-Employed Division is effectively managing CSR turnover at its toll-free
                 telephone system call sites to determine whether the IRS has taken any action to
                 address the high turnover rate at some call sites.
        F.       Discussed changes to routing scripts with IRS management and reviewed
                 applicable documentation, evaluated whether the scripts were simplified, and
                 determined whether the revised scripts were effective in reducing the number of
                 callers opting out of the scripts (i.e., primary abandons).
        G.       Identified and reviewed any additional changes that IRS management
                 implemented to improve productivity.
        H.       Reviewed the instructions on using the toll-free telephone system provided to
                 taxpayers by the IRS.
IV.     Reviewed recent productivity analyses and related studies on the toll-free telephone
        system conducted by the IRS and its contractors.
V.      Reviewed the IRS performance measures for the toll-free telephone system.

        A.       Analyzed IRS reports to identify current toll-free telephone system performance
                 measures, indicators, etc.
        B.       Evaluated the IRS performance measures for accuracy.

        C.       Determined whether the IRS has developed a methodology to determine the
                 cost-per-call for toll-free telephone services.




3
  The CSR LOS is the IRS’ primary measure of providing callers with access to a live assistor.
4
  An FTE is a measure of labor hours. One FTE is equal to 8 hours multiplied by the number of compensable days
in a particular fiscal year. For Fiscal Year 2003, 1 FTE was equal to 2,088 staff hours.
5
  TIGTA Audit # 200230043.
                                                                                                       Page 29
      Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                            Additional Enhancements Are Needed

        D.     Using the IRS’ performance measures (and any other measures deemed
               appropriate) for the toll-free telephone system, compared performance for the
               2003 Filing Season with that of prior years.
VI.     Conducted an analysis of time usage by CSRs.
        A.     Determined the total number of FTEs planned for toll-free telephone services in
               the 2003 Filing Season and compared it to the number for the 2002 Filing Season.
        B.     Conducted an analysis of the availability of CSRs.




                                                                                         Page 30
    Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                          Additional Enhancements Are Needed

                                                                                  Appendix II


                           Major Contributors to This Report

Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Frank Dunleavy, Acting Director
William E. Stewart, Audit Manager
Karen J. Stafford, Senior Auditor
Denise M. Gladson, Auditor
Debra D. Mason, Auditor




                                                                                       Page 31
    Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                          Additional Enhancements Are Needed

                                                                            Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Information Officer OS:CIO
Acting Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Associate Commissioner, Business Systems Modernization OS:CIO:B
Director, Customer Account Services, Small Business/Self-Employed Division SE:S:CAS
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Joint Operations Center SE:W:CAS:JOC
Deputy Director, Accounts Management, Small Business/Self-Employed Division
SE:S:CAS:AM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W
       Director, Customer Account Services, Small Business/Self-Employed Division
       SE:S:CAS
       Director, Customer Account Services, Wage and Investment Division SE:W:CAS




                                                                                  Page 32
     Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                           Additional Enhancements Are Needed

                                                                                                     Appendix IV


                                             Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Inefficient Use of Resources – Potential; $3,605,742 per year.1 Over 5 years, $18,028,710
    (see page 10).
Methodology Used to Measure the Reported Benefit:
Using the Internal Revenue Service’s (IRS) work plan for Fiscal Year (FY) 2002, we compared
the percentage of default screener services planned (Applications 1 and 3 for English;
Applications 2 and 4 for Spanish) with all services planned for the three main customer service
toll-free lines. The total services planned, including screener services, totaled 41,016,739. We
then used the number of English screener services planned divided by the total services to
determine the percentage (3.86 percent) of English screener services to total services. We used
the same process to calculate Spanish services (.0032 percent). Next, we used the Site-Level
Balanced Measure–Assistor Services Provided Report from the IRS Enterprise Telephone Data
(ETD) Warehouse2 to calculate the actual services provided for the comparable lines for FY 2003
through June 2003. We used the Customer Account Services subtotal of 32,067,684 and
subtracted calls to the following product lines: Criminal Investigation, National Taxpayer
Advocate, Practitioner Priority Service, Volunteer Income Tax Assistance,
Teletype/Telecommunications Device for the Deaf, and International. This gave a total of
30,814,710. We then obtained screener services from the Agent Transfer Report (also on the
IRS ETD Warehouse) for the same period for Application 1 (7,795,644) and Application 2
(629,301).3 We added these services to the prior subtotal to arrive at total services provided of
39,239,655.
Next, we applied the FY 2002 percentage of planned English screener services to the actual
services for FY 2003 and determined that screener services should have been 1,514,651
(39,239,655 x .0386). We used the same process for Spanish calls and found that screener
services should have been 125,567 (39,239,655 x .0032). We then subtracted these numbers


1
  Due to the timing of this audit, data were available for only the first 9 months of Fiscal Year (FY) 2003. Thus, this
is a conservative estimate of the annual costs. For FY 2002, 79 percent of the time that Customer Service
Representatives (CSR) spent on the telephone occurred in the first 9 months of the fiscal year.
2
  The ETD Warehouse, accessible on the IRS Intranet, provides users with extensive performance data about the IRS
toll-free telephone operations.
3
  Applications 3 and 4 no longer existed in FY 2003.
                                                                                                             Page 33
     Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                           Additional Enhancements Are Needed

from the actual screener calls for each category and calculated the total time spent on these calls
based on the Average Handle Time (AHT) for each category listed on the Agent Transfer Report.
•   English: 7,795,644 – 1,514,651 = 6,280,993 services x AHT of 54.73 seconds =
    343,758,747 seconds.
•   Spanish: 629,301 – 125,567 = 503,734 services x AHT of 58.56 seconds =
    29,498,663 seconds.
Next, we added the above 2 figures to arrive at actual hours of 103,683 which, when divided by
2,088 hours, equaled 49.66 Full-Time Equivalents (FTE).4 However, because this is all direct
time and the IRS planned only 45.6 percent of toll-free telephone system direct time per FTE, we
divided the 49.66 by .456 to arrive at 108.9 actual FTEs. To determine the minimum Customer
Service Representative (CSR) cost, we used the normal entry-level (i.e., Grade 5, Step 1) salary
for a CSR, although availability can occur at any grade. We also used the lowest locality pay
rate (i.e., the “Rest of United States [U.S.]”) at that grade level ($25,697) and calculated the
annual salary costs at $2,798,403 (108.9 FTEs x $25,697). We then multiplied this figure by the
Wage and Investment (W&I) Division’s CSR 2003 floor benefit rate of 28.85 percent and added
that result ($807,339) to the salary figure for a total of $3,605,742.
Type and Value of Outcome Measure:
•   Inefficient Use of Resources – Potential; $6,365,749 per year.5 Over 5 years, $31,828,745
    (see page 17).
Methodology Used to Measure the Reported Benefit:
The IRS established a planning assumption of 5.5 percent Assistor Availability for FY 2003.
Therefore, we used this percentage to calculate the number of available CSR hours that should
have occurred. From the IRS ETD Warehouse, we reviewed the Site-Level Performance
Indicator–Assistor Availability Reports for FY 2003 through June 2003. These Reports provide
data on the actual number of hours that CSRs spent handling calls (i.e., handle time) and the
actual number of hours that CSRs spent waiting for calls to arrive (i.e., available time). When
these 2 figures are added together, they give the total telephone time that, in this case, was
6,035,012 hours. Using the 5.5 percent planned availability rate, the number of available hours
should have been 331,926. The actual available hours as shown on the reports were 733,261, or
a difference of 401,335. To determine the minimum salary costs of these 401,335 hours, we
applied the normal entry level (Grade 5, Step 1) salary ($25,697) for a CSR using the lowest
locality pay rate (i.e., the “Rest of U.S.”) and calculated the hourly salary rate at $12.31 per hour



4
  An FTE is a measure of labor hours. One FTE is equal to 8 hours multiplied by the number of compensable days
in a particular fiscal year. For FY 2003, 1 FTE was equal to 2,088 staff hours.
5
  Due to the timing of this audit, data were available for only the first 9 months of FY 2003. Thus, this is a
conservative estimate of the annual costs. For FY 2002, 79 percent of the time that CSRs spent on the telephone
occurred in the first 9 months of the fiscal year.
                                                                                                        Page 34
    Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                          Additional Enhancements Are Needed

($25,697/2,088 hours). This hourly rate multiplied by the number of unplanned available hours
equaled $4,940,434. We then multiplied this figure by the W&I Division’s CSR 2003 floor
benefit rate of 28.85 percent and added that result ($1,425,315) to the salary figure for a total of
$6,365,749.




                                                                                              Page 35
Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                      Additional Enhancements Are Needed

                                                                      Appendix V


               Management’s Response to the Draft Report




                                                                           Page 36
Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                      Additional Enhancements Are Needed




                                                                           Page 37
Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                      Additional Enhancements Are Needed




                                                                           Page 38
Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                      Additional Enhancements Are Needed




                                                                           Page 39
Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                      Additional Enhancements Are Needed




                                                                           Page 40
Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                      Additional Enhancements Are Needed




                                                                           Page 41
Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                      Additional Enhancements Are Needed




                                                                           Page 42
Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                      Additional Enhancements Are Needed




                                                                           Page 43
